JSS
I

C@OQCKLE

2311 Douglas Street L e g a | B rie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.coeklelegalbriefs.com

Fax: (402) 342-4850 No.

FOXFIELD VILLA ASSOCIATES, LLC, RICHARD A.
BARTLETT, ERNEST J. STRAUB, III, BARTLETT.
FAMILY REAL ESTATE FUND, LLC, AND PRES, LLC,

Petitioners,
_
PAUL ROBBEN AND RDC HOLDINGS, LLC,
Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 23rd day of December, 2020, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above
entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3
calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

JOHN M. DUGGAN
Counsel of Record
DUGGAN SHADWICK DOERR &
KURLBAUM LLC
9101 W. 110th Street, Suite 200
Overland Park, Kansas 66210
(913) 498-3536
(913) 498-3538 (facsimile)
jduggan@dsdklaw.com
Attorneys for Petitioners
Bartlett Family Real Estate
Fund, LLC, PRES, LLC,
Foxfield Villa Associates, LLC,
Richard A. Bartlett, and
Ernest J. Straub, IIT

Subscribed and sworn to before me this 23rd day of December, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths,

  
    

GENERAL MOTARY-State of Nebraska
RENEE J, GOSS
My Comm. Exp. September 5, 2023

 

Keres. 0. Lows Qndaae- be. Gbibe

Notary Public Affiant

 

40419
The service information for counsel for respondents is:

Robert M. Pitkin

Horn Alyward & Bandy, LLC
2600 Grand Blvd, Suite 1100
Kansas City, Missouri 64108
816-421-0700
rpitkin@hab-law.com
